COCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 CAL egal B riefs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-714

COMMONWEALTH OF PENNSYLVANIA,
Petitioner,
Vv.
WILLIAM R. LANDIS, JR.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 3779 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 29th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Lee ,
My Commission Expires Nov 24, 2020 e

Notary Public Affiant 30388

 
